No. 20-361

 

IN THE
Supreme Court of the United States

JAMES COURTNEY AND CLIFFORD COURTNEY
PETITIONERS
Vv.

DaviD DANNER, IN HIS OFFICIAL CAPACITY AS
CHAIRMAN AND COMMISSIONER OF THE WASHINGTON
UTILITIES AND TRANSPORTATION COMMISSION,
ETAL.,

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF AMICI CURIAE LAW PROFESSORS RICHARD
AYNES, JAMES ELY, RICHARD EPSTEIN, CHRISTOPHER
GREEN, MICHAEL LAWRENCE, AND REBECCA ZIETLOW

IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,948 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 2, 2020.

 

Colin Casey Hggan
Wilson-Epes Printing Co., Inc.
